rT

Q@OQCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ad fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

JAMES K. COLLINS AND
TONI SHARRETTS COLLINS,
Petitioners,

v.
D.R. HORTON-TEXAS, LTD.,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of May, 2020, send out
from Omaha, NE | package(s) containing 1 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
TONI L. SHARRETTS COLLINS
LAW OFFICE OF TONI L. SHARRETTS COLLINS
11054 North Hidden Oaks
Conroe, Texas 77384
(281) 827-7749 — Telephone
iceattorney@aol.com
Attorney for Petitioners

Subscribed and sworn to before me this 11th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

      

GERERAL NOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5; 2023

 

Notary Public
Ben A. Baring Jr.

Counsel of Record
Paul J. McConnell IIT
DeLange Hudspeth
1177 West Loop South
Suite 1700
Houston, TX 77027
713-871-2010
bbaring@dhmtlaw.com
pmcconnell@dhmtlaw.com

ATTORNEYS FOR RESPONDENT
